                                    UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL
                                       May 9, 2011




MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations




FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   MEMORANDUM REPORT: AUDIT OF NRC’S SHUTTLE
                           SERVICE (OIG-11-A-11)


The Office of the Inspector General (OIG) conducted an audit of the Nuclear Regulatory
Commission’s (NRC) shuttle service based on a request made by the Office of the
Executive Director for Operations. The audit objective was to determine the
effectiveness, efficiency, and economy of the shuttle service versus public
transportation. OIG determined that NRC staff are satisfied with the shuttle service, and
buses generally operate in an efficient and effective manner as required by the contract.
Moreover, the shuttle service has proven to be a more convenient option for the agency
than using public transportation. However, this report includes five observations that
could enhance shuttle safety and security and improve administration of the service
contract.

BACKGROUND

On March 21, 2007, NRC launched a shuttle service between its main headquarters
complex (White Flint) in Rockville, Maryland, and a nearby interim facility opened to
provide temporary workspace during the construction of a new office building at White
Flint. The shuttle service was eventually expanded to include routes to three additional
interim facilities located within several miles of White Flint. The shuttle service was
initiated to eliminate the need for staff to use their own vehicles and incur expenses to
                                                                           Audit of NRC’s Shuttle Service


travel between interim facilities and White Flint for meetings, training, and other official
activities. NRC intends to maintain the shuttle service until construction of the new
office building is completed and employees located in the interim facilities are moved
back to White Flint. Consolidation is planned to occur during calendar year 2012.

The agency contracted with Blue Ridge Limousine and Tour Service, Inc., to provide
NRC’s shuttle service. The contractor provides transportation services for (1) NRC-
approved passengers (i.e., NRC staff and contractor personnel with NRC identification
(ID) badges)1 and (2) non-sensitive, non-classified, and non-safeguards information
packages up to 20 pounds between NRC headquarters locations. On occasion, the
agency may request the contractor to transport NRC-approved passengers to other
locations to attend special agency events within the Washington, DC, metropolitan area.

The contractor uses six shuttle buses that can each transport up to 22 passengers.
Each vehicle is equipped with seat belts and a lift to transport individuals with
wheelchairs or scooters. NRC shuttle buses (see photograph, next page) complete
about 22 to 35 round trips per day between the interim facilities and White Flint.

The current shuttle contract, in the amount of $1.1 million, started on December 1,
2009, and covered a one year period. The contract contains two option periods. The
first option period, in the amount of $1.1 million, was exercised for another year. The
second option period, in the amount of $552,000, covers the period from December 1,
2011, through May 31, 2012.




1
 The agency requires that employees and contractors must present their NRC-issued picture ID badge to the
driver in order to ride the shuttle.


                                                  2
                                                                              Audit of NRC’s Shuttle Service


                                         NRC Shuttle Bus




                                                                 Source: OIG


The agency’s Office of Administration (ADM) manages the shuttle service contract and
day-to-day shuttle operations. ADM maintains a shuttle schedule on its Intranet Web
site and distributes hardcopy shuttle schedule brochures.2 ADM also maintains a Help
Desk and an e-mail address to receive inquiries and/or complaints related to the shuttle
service. Further, ADM conducts periodic surveys to assess agency employee
satisfaction with the shuttle service. In fiscal year 2011, ADM has approximately 0.5
full-time equivalents dedicated to administering the agency’s shuttle service contract.


PURPOSE

The audit objective was to determine the effectiveness, efficiency, and economy of the
shuttle service versus public transportation.


RESULTS

NRC staff are satisfied with the shuttle service, and buses generally operate in an
efficient and effective manner as required by the contract. Specifically, (1) shuttles are


2
    Currently, NRC’s shuttle buses operate between 6 a.m. and 6:30 p.m., 5 days per week.

                                                     3
                                                                  Audit of NRC’s Shuttle Service


generally on time (arrival and departures), (2) shuttles are clean and maintained in a
professional manner, and (3) shuttle drivers are polite, courteous, and maintain a
professional demeanor. Moreover, the shuttle service has proven to be a more
convenient option for the agency than using public transportation.

OIG makes the following five observations related to shuttle safety and security and the
administration of the shuttle contract.

Observations for Agency Consideration

Safety and Security

      Re-emphasize mandatory seat belt use for staff and drivers. Executive
      Order 13043, Increasing Seat Belt Use in the United States, requires that each
      Federal employee, whose seat is equipped with a seat belt, properly fasten and
      use the seat belt while on official business in a moving vehicle. In addition, NRC
      Yellow Announcement No. 113, Seatbelt Use On NRC Shuttle Buses, states that
      all NRC shuttle buses are equipped with passenger seat belts, and reiterates the
      provisions of Executive Order 13043. However, most NRC staff do not fasten
      and use their seat belts. Moreover, on occasion, NRC shuttle bus drivers do not
      fasten and use their seat belts while operating the vehicle.

      Re-emphasize mandatory display of NRC-issued picture ID badge. NRC
      employees and contractors must present their NRC-issued picture ID badge to
      the shuttle driver as a condition to board the shuttle. This requirement applies to
      passengers boarding the shuttle at White Flint, as well as headquarters interim
      facilities. However, riders do not always present their badges to the shuttle bus
      drivers and drivers do not consistently request to see riders’ badges.

   Contract Administration

      Re-emphasize driver commitment to safety and security. The shuttle service
      contract provides that all vehicles shall be operated in a safe manner in
      compliance with applicable Federal and State laws and NRC guidance. In
      addition, contract provisions provide that drivers refrain from playing the radio,
      using personal cell phones while operating a vehicle, and using other personal
      communication devices while transporting NRC employees. The contract
      provides for performance deductions from the total monthly invoice where the
      contractor fails to meet these requirements. OIG identified that, on occasion,


                                            4
                                                                   Audit of NRC’s Shuttle Service


      NRC shuttle bus drivers (1) do not use turn signals, (2) play the radio and/or talk
      on the cell phone while operating the vehicle, and (3) leave the shuttle bus
      unattended with the engine running and passengers on board.

      Ensure complete ridership records and apply performance deductions
      when appropriate. The shuttle service contract requires that the contractor
      maintain and provide accurate and timely reports on ridership information as
      requested by the NRC project officer or designee. The source of this information
      is the “Shuttle Schedule Ridership/Checklist” that is completed by shuttle drivers
      on a daily basis. The checklist information includes, but is not limited to, data on
      the number of passengers transported on each trip and the number of total
      passengers transported daily. The contract also provides for performance
      deductions from the total monthly invoice if the contractor fails to attain at least
      98-percent accuracy on this report data. OIG reviewed the daily “Shuttle
      Schedule Ridership/Checklist” for September and November 2010, and found
      several inaccuracies and missing data. Moreover, there were no performance
      deductions taken by the agency because of these inaccuracies.

      Incorporate onsite supervisor responsibilities into the shuttle service
      contract. To support shuttle operations, the contractor retains an onsite
      supervisor who performs the following duties: (1) ensures that the cadre of
      shuttle drivers are prepared for their responsibilities; (2) reserves a sufficient
      number of vehicles to meet NRC’s daily transportation needs; (3) ensures that
      vehicles are fueled and in operating condition; (4) maintains the keys to the
      vehicles; and (5) on a daily basis, remains in contact with the contractor’s head
      driver. In addition, any accidents involving NRC shuttles are reported directly to
      the onsite supervisor. OIG identified that the responsibilities of this key individual
      are not included in NRC’s shuttle service contract.


AGENCY COMMENTS

At an exit conference on May 4, 2011, agency management had no comments on the
report.




                                            5
                                                                  Audit of NRC’s Shuttle Service


SCOPE AND METHODOLOGY

OIG conducted this audit to determine the effectiveness, efficiency, and economy of the
shuttle service versus public transportation. The audit focused primarily on safety and
security surrounding shuttle operations and shuttle service contract provisions. OIG
reviewed Federal Government guidance that was applicable to the administration of
NRC’s shuttle service operations, including Code of Federal Regulations, Title 49,
Procedures for Transportation Workplace Drug and Alcohol Testing Programs and
Transportation Services for Individuals with Disabilities, and Executive Order 13043,
Increasing Seat Belt Use in the United States. OIG also reviewed NRC’s Drug Testing
Policy, the current shuttle service contract and modifications, and an NRC Yellow
Announcement related to shuttle operations. Additionally, OIG reviewed the daily
“Shuttle Schedule Ridership/Checklist” for September and November 2010 prepared by
contractor employees.

OIG interviewed ADM management officials to obtain their insights into the
implementation and oversight of the NRC shuttle service. Additional interviews were
conducted with agency officials and staff in headquarters interim facilities served by the
shuttle. Finally, OIG staff rode the NRC shuttle for 21 trips to various locations and
recorded observations. These observations were documented using an OIG-developed
checklist based on performance requirements (expectations) in the shuttle service
contract.

We conducted this performance audit at NRC headquarters from November 2010
through March 2011 in accordance with generally accepted Government auditing
standards. Those standards require that the audit is planned and performed with the
objective of obtaining sufficient, appropriate evidence to provide a reasonable basis for
any findings and conclusions based on the stated audit objective. OIG believes that the
evidence obtained provides a reasonable basis for the report conclusions based on the
audit objective. Internal controls related to the audit objective were reviewed and
analyzed. Throughout the audit, auditors were aware of the possibility or existence of
fraud, waste, or misuse in the program.

The audit work was conducted by Kathleen Stetson, Team Leader; Eric Rivera, Audit
Manager; and Michael Steinberg, Senior Auditor.




                                            6
                                                                 Audit of NRC’s Shuttle Service

Electronic Distribution
Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Mary C. Muessle, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV


                                           7
